Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL


   OREGON CLAIMED SOME
 POTENTIALLY UNALLOWABLE
 COMMUNITY SERVICES BLOCK
GRANT COSTS FOR MULTNOMAH
  COUNTY’S EXPENDITURES
  UNDER THE RECOVERY ACT


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Lori A. Ahlstrand
                                               Regional Inspector General

                                                        April 2013
                                                      A-09-11-01013
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5,
provided $1 billion to the Community Services Block Grant (CSBG) program for fiscal years
(FY) 2009 and 2010. As with annually appropriated CSBG funds, Recovery Act funds were to
be used to reduce poverty, revitalize low-income communities, and help low-income Americans.
In addition, CSBG services funded by the Recovery Act were to be provided on or before
September 30, 2010.

Within the U.S. Department of Health and Human Services, the Administration for Children
and Families (ACF), Office of Community Services, administers the CSBG program. The
CSBG program funds a State-administered network of more than 1,100 local community action
agencies (CAA) that deliver programs and services to low-income Americans. The CAAs
provide services addressing employment, education, better use of available income, housing,
nutrition, and health to combat the causes of poverty.

In the State of Oregon, Oregon Housing and Community Services (State agency) was responsible
for approving CAAs’ applications for CSBG Recovery Act funds and monitoring CAAs’
compliance with Federal requirements. Under the Recovery Act, the State agency was awarded
approximately $8 million in additional CSBG funds for FYs 2009 and 2010.

Multnomah County’s Department of County Human Services (County), located in Portland,
Oregon, is a local governmental CAA that serves families in poverty, homeless youth and
families, seniors, and other groups in need. For the period July 1, 2009, through
September 30, 2010, the State agency awarded the County $1,325,306 in CSBG Recovery Act
funds (the award). The County expended 95 percent of the award through agreements with
nine subcontractors and expended the remaining 5 percent on indirect administrative costs and a
small amount of direct costs. We reviewed the amounts claimed by the County and its two
largest subcontractors, totaling $661,482. These subcontractors were both nonprofit
organizations: Human Solutions, Inc. (Human Solutions), and Impact Northwest, Inc. (Impact
Northwest).

By accepting grant awards, States agree to comply with Federal regulations governing the
administration of the grants, including compliance with various cost principles. Federal law
requires that States receiving CSBG funds ensure that grant fund recipients comply with Office
of Management and Budget cost and accounting standards. Governmental CAAs are subject to
45 CFR part 92, and nonprofit CAAs are subject to 45 CFR part 74. Both parts 92 and 74 state
that the allowability of costs will be determined in accordance with the cost principles that apply
to the type of entity receiving the funds. The County is governed by the grant administration
rules at 45 CFR part 92. Additional Federal regulations at 45 CFR § 92.22(b) state that the cost
principles at 2 CFR part 230, Cost Principles for Non-Profit Organizations, apply to nonprofit
entities other than institutions of higher learning and hospitals.




                                                 i
OBJECTIVE

Our objective was to determine whether the CSBG costs that the State agency claimed for the
County’s program expenditures were allowable in accordance with applicable Federal
requirements.

SUMMARY OF FINDINGS

Of the $661,482 of CSBG costs that we reviewed, $545,571 was allowable in accordance with
applicable Federal requirements. The remaining $115,911 consisted of $824 for the
subcontractors’ mortgage-related and food/entertainment costs and the County’s indirect costs
that we determined to be unallowable and $115,087 of subcontract and indirect costs that we set
aside for ACF resolution. Specifically, we set aside:

   •   $60,088 of salaries and wages claimed for the two subcontractors because the costs were
       based on budget estimates, not actual employee time and effort, and/or lacked adequate
       supporting documentation;

   •   $18,528 of fringe benefits claimed for the two subcontractors that were applicable to the
       set-aside salaries and wages;

   •   $2,289 of facilities costs claimed for Impact Northwest because the costs were allocated
       based on budget estimates, not actual costs;

   •   $750 of client assistance costs claimed for Human Solutions because the costs lacked
       adequate supporting documentation; and

   •   $33,432 of indirect costs, consisting of $27,350 claimed for the two subcontractors and
       $6,082 claimed by the County that was applicable to the two subcontractors’ set-aside
       costs.

The State agency claimed these costs because it did not have adequate monitoring procedures on
subcontracts and allocation of costs to ensure that the CSBG costs claimed for the County’s
program expenditures were allowable in accordance with applicable Federal requirements.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund to the Federal Government $824 for unallowable costs;

   •   work with ACF to determine the allowability of $115,087 that we set aside and refund to
       the Federal Government any amount determined to be unallowable;

   •   work with the County to ensure that all of the County’s subcontractors charge salaries
       and wages based on actual employee time and effort, allocate facilities and indirect costs


                                                ii
       based on actual costs, and maintain adequate documentation supporting the costs
       claimed; and

   •   strengthen monitoring procedures on subcontracts and allocation of costs to ensure that
       costs claimed are allowable in accordance with applicable Federal requirements.

DEPARTMENT OF COUNTY HUMAN SERVICES COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the County stated that it did not contest our finding on
unallowable costs and had refunded the identified unallowable costs as well as additional
unallowable costs for subcontractors that we did not review. The County stated that it believed
that the entire amount set aside for ACF resolution was allowable. The County identified an
additional set-aside amount for subcontractors that we did not review but stated that it believed
this amount was allowable. In addition, the County detailed efforts that it had taken to
strengthen its monitoring procedures on subcontracts and allocation of costs. Nothing in the
County’s comments caused us to revise our findings.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with all of our
recommendations and provided information on corrective actions taken. Regarding our
recommendation that the State agency work with ACF to determine the allowability of the
$115,087 that we set aside, the State agency commented that the County believes the set-aside
amount is allowable but that it would work with both ACF and the County, if deemed necessary,
to determine the allowability of the amount.




                                                iii
                                                  TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION................................................................................................................1

          BACKGROUND .......................................................................................................1
              American Recovery and Reinvestment Act ...................................................1
              Community Services Block Grant Program. .................................................1
              Oregon Housing and Community Services....................................................1
              Multnomah County, Department of County Human Services .......................1
              Federal Requirements for Grantees ...............................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
               Objective ........................................................................................................2
               Scope ..............................................................................................................2
               Methodology ..................................................................................................3

FINDINGS AND RECOMMENDATIONS ......................................................................4

          SUBCONTRACTOR COSTS ...................................................................................5
               Salaries and Wages ........................................................................................5
               Fringe Benefits ...............................................................................................6
               Facilities Costs ...............................................................................................6
               Other Costs.....................................................................................................6
               Indirect Costs .................................................................................................7

          COUNTY INDIRECT COSTS ..................................................................................8

          LACK OF ADEQUATE MONITORING PROCEDURES ......................................8

          RECOMMENDATIONS ...........................................................................................8

          DEPARTMENT OF COUNTY HUMAN SERVICES COMMENTS AND
           OFFICE OF INSPECTOR GENERAL RESPONSE .............................................9

          STATE AGENCY COMMENTS ..............................................................................9

APPENDIXES

          A: COSTS CLAIMED AND RESULTS OF AUDIT FOR THE PERIOD
              JULY 1, 2009, THROUGH SEPTEMBER 30, 2010

          B: COSTS CLAIMED FOR SUBCONTRACTORS HUMAN SOLUTIONS AND
              IMPACT NORTHWEST AND RESULTS OF AUDIT FOR THE PERIOD
              JULY 1, 2009, THROUGH SEPTEMBER 30, 2010



                                                                    iv
C: DEPARTMENT OF COUNTY HUMAN SERVICES COMMENTS

D: STATE AGENCY COMMENTS




                           v
                                      INTRODUCTION

BACKGROUND

American Recovery and Reinvestment Act

The American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5,
authorized supplemental appropriations for job preservation and creation, infrastructure
investment, energy efficiency and science, assistance to the unemployed, and State and local
fiscal stabilization. The Recovery Act provided $1 billion to the Community Services Block
Grant (CSBG) program for fiscal years (FY) 2009 and 2010. As with annually appropriated
CSBG funds, Recovery Act funds were to be used to reduce poverty, revitalize low-income
communities, and help low-income Americans. In addition, CSBG services funded by the
Recovery Act were to be provided on or before September 30, 2010.

Community Services Block Grant Program

The CSBG program was reauthorized by the Community Opportunities, Accountability, and
Training and Educational Services Act of 1998 (CSBG Act), P.L. No. 105-285, to provide funds
to alleviate the causes and conditions of poverty in communities. Within the U.S. Department
of Health and Human Services (HHS), the Administration for Children and Families (ACF),
Office of Community Services, administers the CSBG program.

The CSBG program funds a State-administered network of more than 1,100 local community
action agencies (CAA) that deliver programs and services to low-income Americans. The CAAs
provide services addressing employment, education, better use of available income, housing,
nutrition, and health to combat the causes of poverty. Recovery Act grant funds were intended to
cover additional costs for the same types of services.

Oregon Housing and Community Services

In the State of Oregon, Oregon Housing and Community Services (State agency) was responsible
for approving CAAs’ applications for CSBG Recovery Act funds and monitoring CAAs’
compliance with Federal requirements. Under the Recovery Act, the State agency was awarded
$7,989,158 in CSBG funds for FYs 2009 and 2010.

Multnomah County, Department of County Human Services

Multnomah County’s Department of County Human Services (County), located in Portland,
Oregon, is a local governmental CAA that serves families in poverty, homeless youth and
families, survivors of domestic violence, seniors, adults with disabilities, veterans,
people recovering from mental illness and addiction, and people with developmental disabilities.
The County also provides school-based services to children and families.

For the period July 1, 2009, through September 30, 2010, the State agency awarded the County
$1,325,306 in CSBG Recovery Act funds (the award). The County expended 95 percent of the
award through agreements with nine subcontractors and expended the remaining 5 percent on
indirect administrative costs and a small amount of direct costs.

The County’s two largest subcontractors (in terms of amounts of award funding received) were
Human Solutions, Inc. (Human Solutions), a 501(c)(3) nonprofit organization that received
$417,082, and Impact Northwest, Inc. (Impact Northwest), a private nonprofit organization that
received $173,901.

Federal Requirements for Grantees

By accepting grant awards, States agree to comply with Federal regulations governing the
administration of the grants, including compliance with various cost principles. Section
678D(a)(1)(B) of the CSBG Act requires that States receiving CSBG funds ensure that grant
fund recipients comply with Office of Management and Budget (OMB) cost and accounting
standards. CAAs that are State, local, and tribal governments are subject to 45 CFR part 92, and
CAAs that are nonprofit entities are subject to 45 CFR part 74. 1 Both parts 92 and 74 state that
the allowability of costs will be determined in accordance with the cost principles that apply to
the type of entity receiving the funds. The County is governed by the grant administration rules
at 45 CFR part 92. Additional Federal regulations at 45 CFR § 92.22(b) state that the cost
principles at 2 CFR part 230, Cost Principles for Non-Profit Organizations, apply to nonprofit
entities other than institutions of higher learning and hospitals.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the CSBG costs that the State agency claimed for the
County’s program expenditures were allowable in accordance with applicable Federal
requirements.

Scope

We reviewed $661,482 of the State agency’s claim of $1,325,306 for the County’s program
expenditures funded by the Recovery Act award for the period July 1, 2009, through
September 30, 2010. Specifically, we reviewed $590,983 claimed by the County for the
expenses of its two largest subcontractors, Human Solutions and Impact Northwest, and $70,499
claimed by the County for salaries and wages, fringe benefits, and indirect administrative costs.
We did not review the remaining $663,824, which represented the subcontract costs for the
County’s seven other subcontractors.

We did not review the overall internal control structure of the State agency or the County. We
limited our review of internal controls to those that were significant to the objective of our audit.



1
  The regulations at 45 CFR parts 92 and 74 are HHS’s codifications of OMB Circulars A-102 and A-110,
respectively.


                                                      2
We conducted our audit from August 2011 to June 2012 and performed fieldwork at the office of
the State agency in Salem, Oregon, and the offices of the County, Human Solutions, and Impact
Northwest in Portland, Oregon.

Methodology

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidance;

    •   reviewed contractual and supplemental agreements between the State agency and the
        County for the period July 1, 2009, through September 30, 2010;

    •   reviewed contractual and supplemental agreements between the County and its two
        largest subcontractors, Human Solutions and Impact Northwest, for the period
        July 1, 2009, through September 30, 2010;

    •   reviewed the County’s board of directors’ meeting minutes;

    •   reviewed the accounting policies and procedures of the County, Human Solutions, and
        Impact Northwest;

    •   reviewed the cost allocation methodologies for facilities and/or indirect costs for the
        County, Human Solutions, and Impact Northwest;

    •   interviewed State agency and County officials to gain an understanding of their
        respective fiscal and program monitoring procedures;

    •   interviewed County, Human Solutions, and Impact Northwest officials to gain an
        understanding of the costs charged to the award;

    •   reviewed the State agency’s and County’s fiscal and program monitoring reports;

    •   reviewed correspondence between the State agency and County officials;

    •   reviewed the County’s audited financial statements for the periods July 1, 2007, through
        June 30, 2008; July 1, 2008, through June 30, 2009; and July 1, 2009, through
        June 30, 2010;

    •   reconciled the County’s costs that the State agency claimed under the award with the
        County’s general ledger;

    •   analyzed the general ledgers of the County, Human Solutions, and Impact Northwest to
        identify large, unusual, and/or recurring transactions and examined, on a test basis,



                                                3
         evidence supporting selected transactions for claimed costs to determine their
         allowability; 2 and

     •   discussed our findings with State agency and County officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                              FINDINGS AND RECOMMENDATIONS

Of the $661,482 of CSBG costs that we reviewed, $545,571 was allowable in accordance with
applicable Federal requirements. 3 The remaining $115,911 consisted of $824 for the
subcontractors’ mortgage-related and food/entertainment costs and the County’s indirect costs
that we determined to be unallowable and $115,087 of subcontract and indirect costs that we set
aside for ACF resolution. Specifically, we set aside:

    •    $60,088 of salaries and wages claimed for the two subcontractors because the costs were
         based on budget estimates, not actual employee time and effort, and/or lacked adequate
         supporting documentation;

    •    $18,528 of fringe benefits claimed for the two subcontractors that were applicable to the
         set-aside salaries and wages;

    •    $2,289 of facilities costs claimed for Impact Northwest because the costs were allocated
         based on budget estimates, not actual costs;

    •    $750 of client assistance costs claimed for Human Solutions because the costs lacked
         adequate supporting documentation; and

    •    $33,432 of indirect costs, consisting of $27,350 claimed for the two subcontractors and
         $6,082 claimed by the County that was applicable to the two subcontractors’ set-aside
         costs.

The State agency claimed these costs because it did not have adequate monitoring procedures on
subcontracts and allocation of costs to ensure that the CSBG costs claimed for the County’s
program expenditures were allowable in accordance with applicable Federal requirements.



2
 We determined that the number, dollar amounts, and types of transactions selected were sufficient for determining
allowability of costs based on the adequacy of supporting documentation.
3
 The allowable costs consisted of $481,198 claimed for the County’s subcontract costs, $63,934 claimed for the
County’s indirect costs, and $439 claimed for the County’s salaries and wages and fringe benefits.


                                                        4
See Appendix A for details on the costs that the State agency claimed for the County’s
expenditures and the results of our audit (i.e., allowable, unallowable, and set-aside costs).

SUBCONTRACTOR COSTS

Of the $590,983 of costs claimed by the County for the two largest subcontractors, $481,198 was
allowable in accordance with Federal requirements. The remaining $109,785 consisted of $780
that we determined was unallowable and $109,005 that we set aside for ACF resolution. See
Appendix B for details on the subcontract costs claimed for Human Solutions and Impact
Northwest and the results of our audit (i.e., allowable, unallowable, and set-aside costs).

Salaries and Wages

Federal cost principles (2 CFR part 230, Appendix A, section A.2.) state that to be allowable
under an award, costs must be reasonable for the performance of the award and adequately
documented. In addition, 2 CFR part 230, Appendix B, section 8.m., states that charges to
awards for salaries and wages must be supported by personnel activity reports that reflect an
after-the-fact determination of the actual activity of each employee. Budget estimates (i.e.,
estimates determined before the services are performed) do not qualify as support for charges to
awards.

Of the $205,337 claimed for subcontractor salaries and wages, $145,249 was allowable in
accordance with applicable Federal requirements. We set aside for ACF resolution the
remaining $60,088, which consisted of $49,683 claimed for Impact Northwest and $10,405
claimed for Human Solutions:

   •   For $49,683 claimed for employee salaries and wages, Impact Northwest charged the
       costs to the CSBG program on the basis of budgeted time and effort estimates calculated
       by the program director. In addition, Impact Northwest did not perform any after-the-fact
       determinations of actual employee activity charged to its programs and did not maintain
       copies of certified employee timesheets. Because of the use of budget estimates and the
       lack of adequate supporting documentation, we could not determine the correct amount
       of salaries and wages that should have been charged to the award. Therefore, we set
       aside the $49,683 for ACF resolution.

   •   For $10,405 claimed for one employee’s salary, Human Solutions did not have adequate
       documentation to support these costs. Human Solutions did not obtain certified revised
       timesheets for a program supervisor who reallocated his time from another program to
       the CSBG program for the period July 1, 2009, to March 20, 2010. Human Solutions
       reallocated the employee’s salary on March 31, 2010, on the basis of the employee’s
       verbal attestation of actual time worked for that period. We were unable to interview the
       employee because he was no longer employed at Human Solutions when we were
       conducting our fieldwork. Because of the lack of adequate supporting documentation, we
       could not determine the reasonableness of the salary reallocation charged to the award.
       Therefore, we set aside the $10,405 for ACF resolution.




                                                  5
Fringe Benefits

Federal cost principles (2 CFR part 230, Appendix A, section A.2.) state that to be allowable
under an award, costs must be reasonable for the performance of the award and adequately
documented. In addition, 2 CFR part 230, Appendix B, section 8.g.(1), states that fringe benefits
in the form of regular compensation paid to employees for authorized leave are allowable,
provided such costs are absorbed by all organization activities in proportion to the relative
amount of time or effort actually devoted to each. Section 8.g.(2) states that fringe benefits in
the form of employer contributions or expenses for Social Security, employee insurance, and
similar costs, whether treated as indirect or direct costs, must be “distributed to particular awards
and other activities in a manner consistent with the pattern of benefits accruing to the individuals
or group of employees whose salaries and wages are chargeable to such awards and other
activities.”

Of the $61,451 claimed for subcontractor fringe benefits, $42,923 was allowable in accordance
with applicable Federal requirements. We set aside for ACF resolution the remaining $18,528,
which consisted of $14,834 claimed for Impact Northwest and $3,694 claimed for Human
Solutions. These costs related to the set-aside salaries and wages discussed in the previous
section.

Facilities Costs

Section 678F(a)(1) of the CSBG Act states that the award may not be used “for the purchase or
improvement of land or the purchase, construction, or permanent improvement (other than
low-cost residential weatherization or energy-related home repairs) of any building or other
facility.”

Of the $7,513 claimed for subcontractor facilities costs, $4,489 was allowable in accordance with
applicable Federal requirements. The remaining $3,024, claimed for Impact Northwest, consisted
of $735 that we determined to be unallowable and $2,289 that we set aside for ACF resolution:

   •   The $735 in unallowable costs was for mortgage and loan interest expenses that Impact
       Northwest charged to the award. The mortgage interest expenses were for the purchase
       of an administrative building, and the loan interest expenses were for storefront
       improvements to that building.

   •   The $2,289 that we set aside was for facilities costs that Impact Northwest allocated
       using the budgeted employee time and effort estimates discussed in the section “Salaries
       and Wages.” Because of the use of budget estimates instead of actual costs, we could not
       determine the correct amount of costs that should have been charged to the award.

Other Costs

Federal cost principles (2 CFR part 230, Appendix A, section A.2.) state that to be allowable
under an award, costs must be adequately documented. Furthermore, 2 CFR part 230,
Appendix B, section 14, states that the costs of entertainment, including amusement, diversion,


                                                  6
and social activities and any costs directly associated with such costs (such as tickets to shows or
sports events, meals, lodging, rentals, transportation, and gratuities) are unallowable.

Of the $278,913 claimed for subcontractors’ other costs, 4 $278,118 was allowable in accordance
with applicable Federal requirements. The remaining $795, claimed for Human Solutions,
consisted of $45 that we determined was unallowable and $750 that we set aside for ACF
resolution:

    •    The $45 in unallowable costs was for costs related to staff meetings, celebrations, and a
         picnic that Human Solutions charged to the award. This amount included the cost of
         food, utensils, parking passes, bowling alley rental fees, and park fees. These types of
         unallowable expenses were charged to the CSBG program both directly and as allocated
         administrative costs.

    •    The $750 that we set aside was for a client assistance cost for which Human Solutions did
         not maintain the client’s rental agreement. The subcontractor maintained the client’s
         rental application and a check stub showing that payment was made to the property
         owner listed on the application; however, without the actual rental agreement, there was
         no proof that the payment to the property owner was applied toward that client’s rental
         costs as claimed. Because of the lack of adequate supporting documentation, we could
         not determine the correct amount of costs that should have been charged to the award.

Indirect Costs

Federal cost principles (2 CFR part 230, Appendix A, section A.4.a.) state that a cost is allocable
to an award if it benefits both the award and other work and can be distributed in reasonable
proportion to the benefits received. Furthermore, Federal regulations (45 CFR § 74.21(b)(6))
state that nonprofit organizations must maintain financial management systems that contain
written procedures for determining the reasonableness, allocability, and allowability of costs.

Of the $27,350 claimed for subcontractor indirect costs, the entire amount was set aside for ACF
resolution, consisting of $19,456 claimed for Human Solutions and $7,894 claimed for Impact
Northwest:

    •    The $19,456 was for indirect costs for which Human Solutions did not maintain copies of
         the calculation spreadsheets and distribution codes supporting the costs claimed. Without
         supporting documentation, we could not determine the correct amount of costs that
         should have been charged to the award.

    •    The $7,894 was for indirect costs that Impact Northwest calculated using total direct
         program expenses, which included costs calculated based on budget estimates, such as
         the set-aside salaries and wages, fringe benefits, and facilities costs discussed above.
         Because of the use of budget estimates instead of actual program expenses, we could not
         determine the correct amount of costs that should have been charged to the award.
4
 Other costs included costs for staff training, telecommunications, and client assistance costs, such as rent,
mortgage, utilities, insurance, transportation, and tuition.


                                                           7
COUNTY INDIRECT COSTS

Federal regulations (45 CFR § 92.20(b)) state that the County and its subcontractors must
maintain accounting records that are supported by source documentation and maintain financial
systems that provide for accurate and complete reporting of grant-related financial data.

Of the $70,060 that the County claimed for indirect costs, $63,934 was allowable in accordance
with applicable Federal requirements. The remaining $6,126 consisted of $44 that we
determined to be unallowable and $6,082 that we set aside for ACF resolution. The $44 related
to the $780 in unallowable subcontractor facilities and other costs. The $6,082 was applicable to
the set-aside salaries and wages, fringe benefits, and facilities, other, and indirect costs that the
County claimed for Human Solutions and Impact Northwest.

LACK OF ADEQUATE MONITORING PROCEDURES

The State agency did not have adequate monitoring procedures to ensure that the CSBG costs
claimed for the County’s program expenditures for salaries and wages, fringe benefits, and
facilities, other, and indirect costs were allowable in accordance with applicable Federal
requirements. A State agency monitoring report covering the County’s overall handling of
CSBG Recovery Act programs and activities, as well as Impact Northwest’s fiscal and program
processes, reported no findings or concerns. 5 We found, on the contrary, that the County
allowed its subcontractors to charge unallowable mortgage and loan interest expenses,
unallowable food and entertainment-related costs, and other costs that did not have adequate
supporting documentation and/or were calculated using budget estimates.

RECOMMENDATIONS

We recommend that the State agency:

      •    refund to the Federal Government $824 for unallowable costs;

      •    work with ACF to determine the allowability of $115,087 that we set aside and refund to
           the Federal Government any amount determined to be unallowable;

      •    work with the County to ensure that all of the County’s subcontractors charge salaries
           and wages based on actual employee time and effort, allocate facilities and indirect costs
           based on actual costs, and maintain adequate documentation supporting the costs
           claimed; and

      •    strengthen monitoring procedures on subcontracts and allocation of costs to ensure that
           costs claimed are allowable in accordance with applicable Federal requirements.




5
    The monitoring report did not mention the subcontractor Human Solutions.


                                                         8
DEPARTMENT OF COUNTY HUMAN SERVICES COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the County stated that it did not contest our finding on
unallowable costs and had refunded the identified unallowable costs as well as additional
unallowable costs for subcontractors that we did not review. The County stated that it believed
that the entire amount set aside for ACF resolution was allowable and did not merit repayment
because the subcontractors’ practice of documenting time and effort was based on a practice
authorized by HHS. The County also stated that we did not find that these funds were spent on
unallowable expenses but rather that subcontractor practice did not meet adequate documentation
standards. The County identified an additional set-aside amount for subcontractors that we did
not review but stated that it believed this amount was allowable and did not merit repayment. In
addition, the County detailed efforts that it had taken to strengthen its monitoring procedures on
subcontracts and allocation of costs. The County’s comments are included in their entirety as
Appendix C.
Nothing in the County’s comments caused us to revise our findings. The County did not provide
any evidence to show that HHS had authorized the subcontractors’ practice for documenting
time and effort. We maintain that the subcontractor costs claimed did not comply with Federal
cost principles because they were based on budget estimates and/or lacked adequate supporting
documentation.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with all of our
recommendations and provided information on corrective actions taken. Regarding our
recommendation that the State agency work with ACF to determine the allowability of the
$115,087 that we set aside, the State agency commented that the County believes the set-aside
amount is allowable but that it would work with both ACF and the County, if deemed necessary,
to determine the allowability of the amount. The State agency’s comments are included in their
entirety as Appendix D.




                                                9
APPENDIXES
    APPENDIX A: COSTS CLAIMED AND RESULTS OF AUDIT FOR THE PERIOD
                 JULY 1, 2009, THROUGH SEPTEMBER 30, 2010




    Element of Cost          Claimed         Allowable       Unallowable         Set Aside       Not Audited

    Salaries and                    $280            $280                   $0             $0                  $0
    Wages

    Fringe Benefits                  159              159                   0               0                  0


    Subcontracts 1            1,254,807          481,198                 780        109,005            663,824

    Indirect                     70,060           63,934                   44          6,082                   0


      Total                 $1,325,306         $545,571                 $824      $115,087            $663,824




1
 See Appendix B for details on the costs claimed and results of audit for the subcontractors Human Solutions, Inc.,
and Impact Northwest, Inc.
APPENDIX B: COSTS CLAIMED FOR SUBCONTRACTORS HUMAN SOLUTIONS
   AND IMPACT NORTHWEST AND RESULTS OF AUDIT FOR THE PERIOD
              JULY 1, 2009, THROUGH SEPTEMBER 30, 2010




      Element of Cost   Claimed     Allowable       Unallowable   Set Aside

Salaries and Wages       $205,337     $145,249               $0     $60,088


Fringe Benefits            61,451       42,923                0      18,528


Facilities                  7,513        4,489              735        2,289

Supplies and Expenses      10,419       10,419                0               0


Other Costs               278,913      278,118               45         750


Indirect                   27,350               0             0      27,350


  Total                  $590,983     $481,198             $780    $109,005
                                                                                                Page 1 of3


APPENDIX C: DEPARTMENT OF COUNTY HUMAN SERVICES COMMENTS 


         Department of County Human Services
         MULTNOMAH COUNTY OREGON
         Community Services Division


         421 SW Oak Street, Suite 200
         Portland, Oregon 97204
         503·988·6295 Phone
         503-988-3332 Fax


         February 11 , 2013



         Report Number: A-09-11-01013

         Ms. Lori A. Ahlstrand, Regional Inspector General for Audit Services
         Office of Audit Services, Region IX
         90- yth Street, Suite 3-650
         San Francisco, CA 841 03

         Dear Ms. Ahlstrand:

         Thank you for the opportunity to respond to the US Department of Health and Human
         Services (HHS), Office of Inspector General (OIG), draft report entitled Oregon Claimed
         Some Potentially Unallowable Community Services Block Grant Costs for Multnomah
         County's Expenditures Under the Recovery Act.

         As a local government jurisdiction, we share the Inspector General's commitment to merit
         the public's trust in the use of tax payer funds. We take these responsibilities seriously
         and truly appreciate the feedback that allows the County to improve our systems.

         I will respond to each finding, including action the County has taken since the start of the
         audit process in August of 2011. We believe we have strengthened our oversight
         practices as well as improved subcontractor understanding of their responsibilities to be in
         complete compliance with all applicable Federal regulations in order to ensure that any
         lapse of compliance will not occur in the future .

         And while the OIG audit process found places to improve in our administrative oversight,
         we remain proud of the County's programmatic compliance with both the spirit and letter of
         the American Recovery and Reinvestment Act (ARRA) of 2009 funds that enabled our
         community to support 175 households who were unemployed, gain employment during
         their enrollment in or shortly after their exit from services, in an average of 10 mont hs
         during the re cession .

         Recommendation #1
         Refund to the Federal Government $824 for unallowable costs.

         The County does not contest this finding . In June 2012 and September 2012 the County
         re covered this amount from our subcontractors and refunded $824 to Oregon Housing and
         Community Services (OHCS).
                                                                                       Page 2 of3




In addition, based on the preliminary feedback received from OIG auditors, the Cou nty's
Fiscal Compliance staff replicated the audit process at the seven other subcontract
agencies that were not audited by OIG, finding an additional $421 .92 of disallowable
mortgage costs and this amount was also recovered and refunded to OHCS in September
2012.

Recomm endation #2
Work with ACF to determine the allowability of $115,087 that we set aside and refund to
the Federal Government any amount determined to unallowable.

The County believes that all of the set aside amount is allowable and thus does not merit
recovery or repayment.

As we have shared with OIG auditors, the practice of documenting time and effort by ou r
subcontractors was based on practice that has been authorized by the County's cognizant
agency, HHS, to utilize periodic time studies as an alternate method to meet the
requirements of 2 CFR part 230, Appendix B, section 8.m., Support of Salaries and
Wages. As a result the County allowed this method, in addition to contemporaneous time
tracking, for its subcontractors as an adequate time and effort methodology.

The report does not find that set aside funds were spent on disallowable·expenses rather
that subcontractor practice did not meet, in the opinion of OIG auditors, adequate
supporting documentation standards.

Rec omm endation #3
Work with the County to ensure that all of the County's subcontractor charge salaries and
wages based on actual employee time and effort, allocate facilities and indirect costs
based on actual costs, and maintain adequate documentation supporting the costs
claimed.

Based on the preliminary feedback received from OIG aud ito rs, the County's Fiscal
Compliance staff replicated the audit process at the seven other subcontract agencies that
were not audited by OIG identifying an additional amount of set aside funds, $149,437,
which while not meeting, in the opinion of OIG auditors, adequate supporting
documentation standa rds, we believe are nonetheless allowable and thus do not merit
recovery or repayment.

All County subcontractors have been notified in writing of the OIG auditor' s findings, and
advised that in the event ACF determines that these funds are unallowable, immediate
recovery and repayment will occur.

Recom mendation #4
Strengthen monitoring procedures on subcontracts and allocation of costs to ensure that
costs claimed are allowable in accordance with applicable Federal requirements.

The County's Contractor Fiscal Policies and Procedures Manual has been updated to
clearly describe acceptable time and effort and purchasing practices. In addition , Division
program staff have met with each subcontractor to review in detail unallowable mortgage,

Multnomah County                    Page 2 of 3                    February 11, 2013
                                                                                       Page 3 of3




fees, interest, and food expenses under Community Services Block Grant (CS BG)
funding.

The Department's human services contract language has been revised to specifically
require copies of signed landlord agreements when rent assistance is provided using
federal funds . In addition, subcontractor budget submission forms have been revised to
require detailed description of projected leasing and other costs.

All subcontractors were required, as of July 2012, to revise current time and effort
practices to utilize contemporaneous time tracking methodology in response to OIG
advice.

As a result of these actions, the County believes we have exercised appropriate due
diligence to ensure, in response to OIG findings and recommendations, that all applicable
Federal requirements are being met.

Thank you again for the opportunity to provide information about the County's actions to
improve our processes and respond directly to OIG recommendations. Please don't
hesitate to let'me know if you require any further information or documentation.

Sincerely,


~
Mary Li, Manager
Community Services Division
Multnomah County Department of County Human Services

C: 	   Susan Myers, DCHS Director
       Kathy Tinkle, DCHS Deputy Director
       Nancy Culver, DCHS
       Colleen Yoshihara, Multnomah County Fiscal Compliance Officer




Multnomah County                   Page 3 of 3 	                  February 11, 2013
                                                                                                             Page 1 of2

                          APPEN DIX D: STATE AGENCY COMMENTS



                                                                           Hous ing and Community Services
                                                                                          North Mall Office Building       ·!.
                                                                                          725 Summer St NE, Suite B
                                                                                            . Salem, OR 97301-1266
                                                                                              PHONE: (503) 986-2000
                                                                                              FAX:    (503) 986-2020
                                                                                              TTY:    (503) 986-2100
                                                                                             · www.ohcs.oregon.gov


March 26, 2013



Lori A Ahlstrand, Regionalln.spector General
Audit Services, Office of Inspector General
Department of Health and Human Services
90 - 7th Street, Suite 3--650
San Francisco, CA 94103

Re:      Report Number A-09-11-01 013

Dear Ms. Ahlstrand,

This letter is in response to Report Number A-09-11-01013 identified in your draft audit report dated February
26, 2013. Oregon Housing and Community Services (OHCS) is committed to being good stewards of financial
resources, and the agency is on a continuous improvement path to strengthen its internal controls and
business systems. The following responses reflect the efforts of management and staff to address each of the
items listed in the report.

We concur with all of the following recommendations:

      1. 	 Refund to the Federal Government $824 for unallowable costs.

         ,<:orrective action taken: OHCS refunded a total of $1 ,245.92 to the Federal Government on March 4,
         2013. In September 2012, Multnomah County refunded to OHCS the original $"f 80 and on March 11,
         2013, $44. Additionally, the County's March refund included $421 .92 more due to reviewing the seven
         other subcontract agencies not audited by the OIG.                        ·

      2. 	 Work with ACF to determine the allowability of $115,087 that we sot aside and refund to the Federal
         Government any amount determined to be un;~llowal)le.                                   ·

         Corrective action taken: Multnomah County believes the set aside is allowable and does not merit
         recovery or repayment. In qddition, the County believes their actions on the practice approved by HHS
         related to supporting documentation standards listed in 2 CFR part 230, Appendix B, section S.m. for
         subcontractors time and effflrt methodology is adequate. OHCS will work with ACF and Multnomah
         County, if deemed necessary, to determine the allowability of the $115,087 set aside.

      3. 	 Work with Multnomah County to ensure that all ofthe County's subcontractors charge salaries and
         wages based on actual employee time and effort, allocate facilities and indirect costs based on actual
         costs, and maintain adequate documentation supporting the costs claimed.

         Corrective action taken: Multnomah County notified all subcontractors in writing of the OIG auditor's 

         finds and advised of the possibility of immediate recovery and repayment of funds if found unallowable

!!}      in a subsequent review by ACF. OHCS will worl< with the County to ensure maintenance of adequate 


 ---- -·--
 -	
                    -   _____ _ _ ___ ____ ___ _,_ ........... -· ----
                                  ,      ,       ,            ,   ..
                                                                     ·
                                                                       ....-                  .. - -....-
                                                                                                       11Page
                                                                                                             ..~       

                                                                                                          Page 2 of2



       supporting documentation that supports subcontractors' salaries and wages based on actual time and
       effort and allocation of facilities and indirect costs based on actual costs.

   4. 	 Strengthen monitoring procedures on subcontracts and allocation of costs to ensure that costs claimed
        are allowable in accordance with applicable_ Federal requirements.

       Corrective action taken: In addition to the County updating policies and procedures, OHCS will update
       procedures to include specific monitoring protocol that includes review of subcontracts and allocation of
       costs to ensure all costs are allowable under Federal program rules.

Thank you for the opportunity to respond to the draft report entitled, "Oregon Claimed Some Potentially
Unallowable Community Services Block Grant Costs for Multnomah County's Expenditures under the
Recovery Act.• If you have any questions, please contact Diana Koppes, Administrator of the Business
Operations Division, responsible for audit responses.

Respectfully submitted,

/Julie V. Cody/

Julie Cody, Adm inistrator, Program Delivery Division

!Diana Koppes/

Diana Koppes, Administrator, Business Operati?ns Division




                                                                                                    -21Page
                                                                                                         -
